INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES
                                                                               November 15,2007

To: 	 Diego T. Ruiz
      Corey Booth
      Brian Cartwright

From: Nelson Egbert
                                 v
Re: 	 Internet Use Policies and Rules (No. 443)

During investigations recently conducted by our office, we found evidence that
employees accessed pornography or other inappropriate material through the Internet
from their Commission computers, despite the Internet filter.

We noted that Commission policies regarding prohibited Internet use need to be updated,
clarified, and made more accessible and consistent. For example, SECR 24-4.3, Use of
SEC Office Equipment (March 8,2002), does not specifically include downloading or
accessing pornography, or sexually explicit or suggestive material, from the Internet as an
"inappropriate personal use" of government office equipment. A related memorandum
fiom the Executive Director, also issued on March 8,2002, does state that employees are
not allowed to "access materials related to illegal or prohibited activities, including
sexually explicit materials." A July 2,2003 memorandum fiom the Executive Director
on the proper use of the Internet states, "The SEC considers inappropriate use of the
Internet to be an extremely serious matter." It further provides that misuse or
inappropriate use of government equipment includes, among other things, "accessing
sexually explicit materials." These memoranda, however, are not available on the
Commission's Insider website and have not been updated.'

Similarly, the relevant language in the Office of Information Technology's Rules of the
Road (which govern employee and contractor use of information technology resources)
could be consolidated and clarified. Rule of the Road #2, "Don't Abuse the Privilege of
Using the InternetIIntranet," prohibits (in two separate places) the downloading of
pornographic materiaL2 The Rule does not mention the downloading of sexually explicit


'  The Insider has a link to an outdated memorandum to all SEC employees fiom the Executive Director
titled Internet Usage Policy (February 28, 1998).

  One prohibited use under Rule #2 states, "DO NOT engage in any activity that would discredit the SEC,
including: seeking, transmitting, collecting, downloading, viewing, or storing pornographic material,"
while another prohibited use provides, "DO NOT create, download, view, store andlor transmit
inappropriate material or material related to illegal activities (e.g., pornography, gambling, terrorist
activities)."
or suggestive material, however. Such material, while inappropriate for the workplace, is
not necessarily pornographic.

We also noted that the warning message to Commission users attempting to access
Internet websites blocked as pornography should be improved. The current message
states: "The URL is blocked as per SEC OIT Security policy due to its categorization as
the following: 'Pornography.' If you feel this site is relevant to your work at the SEC,
please contact Customer Care at x14357 for any questions or clarifications . . . ." The
message does not notify the user that accessing or downloading pornography or sexually
explicit materials is prohibited and violates Commission policies and rules. Also, the
message does not mention the possible penalties for attempting to access such materials
using SEC resources.

       Recommendation A

       The Office of the Executive Director (OED), in consultation with the Office of the
       General Counsel (OGC) and the Office of Information Technology (OIT), should
       update, consolidate and clarify the Internet usage policies, including SECR 24-
       4.3, to specifically prohibit the accessing or downloading of pornography or
       sexually explicit materials. Such policies should be easily accessible from the
       Insider web page.

       Recommendation B

       The OED, in consultation with OGC and OIT, should (a) clarify what is meant by
       pornographic materials and sexually explicit materials and (b) send reminders to
       all employees and contractors that accessing or downloading pornographic
       materials from Commission computers is strictly prohibited and may result in
       appropriate discipline.

       Recommendation C

       OIT, in consultation with the OED and OGC, should revise the language of Rule
       of the Road #2, which prohibits the accessing and downloading of pornography,
       to make it clearer, more inclusive and consistent with other policies.

       Recommendation D

       OIT, in consultation with the OED and OIT, should revise the warning message to
       users for blocked attempts to access pornography from Commission computers.
       The message should refer to the specific Commission policies and rules that may
       have been violated and warn of possible penalties for such conduct.
cc: 	   Deborah Balducchi
        Richard Humes
        Joseph Gerrity
        David Pinansky
        Darlene Pryor
        Peter Uhlmann
